                                Closeout for Case M01010004




        In November 2000, we received an allegation about a proposal' that had been
submitted to NSF. The complainant2 outlines three allegations of material
misrepresentation against the PI^ (subject 1) and the C O - P I ~ (subject 2): (1) restrictive user
agreements on "free" software (subject 2 only); (2) the publication of work that was not
their own (subject 2 only); (3) and the falsification of bibliographic inf~rmation.~

        Our review of the materials presented indicated that allegation one was not an
issue of misconduct. The second allegation involved work that was sponsored by FEMA
and therefore NSF OIG has no jurisdiction, however, FEMA OIG was notified. Our
review of allegation three indicated that two journal articles listed as "submitted" had
never been submitted to the listed journal. In response to our letters requesting an
explanation, the subjects both admitted that the articles were not submitted. Both
subjects indicated the error wis a result of the rush to submit the proposal. Subject 2 took
responsibility for the error while subject 1 did provide us with copies of the original
manuscripts. Subject 2's acceptance of responsibility is consistent with the fact that we
determined he had erroneously listed these manuscripts as "submitted" in another NSF
proposal on which he was also a co-PI as well as in a journal article6 where both subjects
were co-authors.

        In May 2001, the complainant provided us with additional evidence of seven
allegations of misconduct. Our review of these allegations indicate that they involved a
collaboration which had dissolved under less than collegial circumstances. Our review of
the material determined that two of the allegations directly related to the issue of the
journal articles listed as "submitted." The remainder of the allegations either lacked
substantive evidence or were not within the jurisdiction of the NSF OIG and did not merit
being referred to another office.

      The erroneous listing of two journal articles as "submitted" occurred in three
documents where subject 2 is co-author. However, subject 1 is listed as a co-author.on




1
  Redacted
  Redacted
  Redacted
4
  Redacted
5
  Redacted
  Redacted


                                                 Page 1 of 2
                              Closeout for Case M01010004

only two of the documents. The common thread between these documents is subject 2,
therefore, we believe subject 2 is the individual who should bear primary responsibility
for this error. We do not believe that, in this case, subject 2's actions rise to the level of
misconduct in science. However, we sent a letter to subject 2 strongly cautioning him to
pay closer attention to the proper practices of citing literature and proposal preparation.

        This inquiry is closed and no further action will be taken.




                                               Page 2 of 2
